      Department of Homeland Security



            Costs Claimed by Grand Traverse Metro 

             Emergency Services Authority under 

                a Fire Station Construction Grant 





             American Recovery and Reinvestment Act of 2009



OIG-12-98                                                     July 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washingloo, DC 20528 I www.oig.dhs.gov




                                 JUL 1 3 2012

MEMORANDUM FOR:              Elizabeth M. Harman
                             Assistant Administrator, Grant Programs Directorate
                             Federal Emergency Management Agency


fROM:                        Anne l. Richards ~;/~
                             Assistant Inspector Genera l for Audits

SUBJECT:                     Costs Claimed by Grand Traverse Metro Emergency
                             Services Authority Under a Fire Station Construction Grant

Attached for your action is our final report, Costs Claimed by Grand Traverse Metro
Emergency Services Authority Under a Fire Station Construction Grant. We incorporated
the forma l comments from the Office of Policy and Program Ana lysis, Federa l
Emergency Management Agency (FEMA), in the final report.

The report contains three recommendations for FEMA to resolve $591,457 of
questionable costs that the Metro Emergency Services Authority claimed for
reimbursement. The Office of Policy and Program Analysis concurred with all
recommendations. As prescribed by Department of Homeland Security Directive 077-1,
Follow-Up and Resolutions for the Office of Inspector General Report
Recommendations, within 90 days of the date of this memorandum, please provide our
office with a written response that includes your (1) agreement or disagreement,
(2) corrective action plan, and (3) target completion date for each recommendation.
Also, please include responsible parties and any other supporting documentation
necessary to inform us about the current status of the recommendation. Until your
response is received and evaluated, the recommendations will be considered open and
unresolved .

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressiona l committees with oversight and
appropriation responsibi lity over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II,
Deputy Assistant Inspector Genera l for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1 


   Background ......................................................................................................................... 2 


   Results of Audit ................................................................................................................... 3 


              Purchases Not in Compliance With Procurement Requirements ($278,286) ........ 3 

              Recommendation ................................................................................................... 7 

              Management Comments and OIG Analysis ........................................................... 7 


              Ineligible Costs ($190,916) ….………………………………………………………………………………8
              Recommendation ……………………………………………………………………………………………..11
              Management Comments and OIG Analysis .......................................................... 11

              Unsupported Salary and Benefits Costs ($122,255) ............................................. 12

              Recommendation ................................................................................................. 13 

              Management Comments and OIG Analysis .......................................................... 14 


              Compliance with Requirements for Reporting, Buying American Products, and
              Paying Prevailing Wages ...................................................................................... 14

   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 15 

              Appendix B:          Management Comments to the Draft Report ............................... 17 

              Appendix C:          Major Contributors to This Report ................................................ 19 

              Appendix D:          Report Distribution ........................................................................ 20 


   Abbreviations
              CFR                   Code of Federal Regulations
              DHS                   Department of Homeland Security
              FEMA                  Federal Emergency Management Agency
              NFPA                  National Fire Protection Association
              OIG                   Office of Inspector General
              OMB                   Office of Management and Budget



www.oig.dhs.gov                                                                                                                  OIG-12-98
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Executive Summary
   The Federal Emergency Management Agency (FEMA) awarded a grant of $2,813,034 to the
   Grand Traverse, Michigan, Metro Emergency Services Authority, to construct a new fire
   station in the Garfield Charter Township Silver Lake Recreation Area. At the time of our
   audit, the Metro Emergency Services Authority had received cost reimbursement of
   $2,589,021 from FEMA.

   We conducted our audit to determine whether costs claimed by the Metro Emergency
   Services Authority were allowable, allocable, and reasonable according to the grant
   agreement and applicable Federal requirements.

   We questioned the eligibility for reimbursement of $591,457 of claimed costs. We also
   determined that the Metro Emergency Services Authority submitted the required status
   reports to the Federal Government and complied with grant requirements for using
   American-made materials in the new fire station and paying prevailing wages to
   construction workers.

   FEMA agreed with our three recommendations to resolve the questioned costs claimed by
   the Metro Emergency Services Authority.




www.oig.dhs.gov                              1                                     OIG-12-98
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   The American Recovery and Reinvestment Act of 2009 (Recovery Act), as amended,
   appropriated $210 million to FEMA for competitive grants for modifying, upgrading, or
   constructing non-Federal fire stations. On September 25, 2009, FEMA awarded grant
   number EMW-2009-FC-01786R, totaling $2,813,034, to the Grand Traverse Metro
   Emergency Services Authority (Traverse Metro) to construct a new fire station in the
   Garfield Charter Township Silver Lake Recreation Area.

   The grant specified a period of performance from September 25, 2009, to September 24,
   2012. As of September 30, 2011, Traverse Metro had completed construction of the
   new fire station (figure 1) and had received reimbursements of $2,589,021 from FEMA
   for project design, engineering, construction, and management.




   Figure 1. Traverse Metro New Fire Station
   Source: Traverse Metro.

   Under the terms of the grant, Traverse Metro agreed to use the grant funds according
   to FEMA’s A.R.R.A. Assistance to Firefighters, Fire Station Construction Grants, Guidance



www.oig.dhs.gov                                2                                       OIG-12-98
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   and Application Kit (Guidance and Application Kit), and to comply with Office of
   Management and Budget (OMB) Circular A-87, Revised, Cost Principles for State, Local
   and Indian Tribal Governments (2 Code of Federal Regulations (CFR) Part 225), and the
   Uniform Administrative Requirements for Grants and Cooperative Agreements to State
   and Local Governments (44 CFR Part 13).

   The grant also includes requirements for complying with OMB Circular A-133, Audits of
   States, Local Governments, and Nonprofit Organizations, and Recovery Act provisions
   for submitting quarterly recipient reports to the Federal Government on the use of
   Recovery Act funds; paying prevailing wages as determined by the Secretary of Labor;
   and using American-made iron, steel, and manufactured goods.


   Results of Audit
   Of the $2,589,021 Traverse Metro received from FEMA, we questioned costs of
   $591,457 for purchases that did not comply with procurement requirements ($278,286);
   for ineligible services, systems, and equipment ($190,916); and for salary and benefits of
   two Traverse Metro employees that were not adequately supported ($122,255). We
   concluded that Traverse Metro did comply with grant requirements for submitting
   quarterly Recovery Act reports to the Federal Government and for ensuring that
   contractors were paid prevailing wages and that American-made iron, steel, and
   manufactured goods were used in the construction of the new fire station.

           Purchases Not in Compliance with Procurement Requirements ($278,286)

           We questioned costs of $278,286 pertaining to two noncompetitive purchases
           by Traverse Metro that were not in compliance with its Purchasing and Bid Policy
           and Federal procurement regulations. The Traverse Metro Purchasing and Bid
           Policy requires that goods and services must be solicited and/or requests for
           proposals prepared under the following circumstances.

           a.	 $5,000–$20,000: A request for written bids must be prepared and three
               quotes must be obtained. Publication of a Notice to Bidders is not required.
               The bids do not have to be sealed.

           b.	 $20,001 and above: A request for bid must be prepared and three bids must
               be obtained. A Notice to Bidders should be available in the Administration
               Office. The bids must be sealed.




www.oig.dhs.gov                                3	                                      OIG-12-98
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           c.	 Bids for recurring services must be solicited and requests for bids must be
               prepared for all contracted services, including professional services.

           Section 7 of the Purchasing and Bid Policy says that bids are not required for “an
           emergency purchase . . . the vendor is the sole source of an item or the vendor is
           the sole source for an item requiring matching or compatibility with current
           goods equipment.” The policy also requires that all purchases of goods and
           services in an amount higher than $20,000 and all contracts for recurring
           services must be approved by the Traverse Metro Board.

           FEMA’s Guidance and Application Kit stresses the need for competitive
           procurements, summarizes Federal requirements for procurement
           documentation and use of specifications, and cautions against personal and
           organizational conflicts of interest. The Guidance and Application Kit warns that
           grantees “who fail to adhere to their own procurement policy or otherwise fail
           to fully ‘compete’ any transaction involving Federal funds may find their
           expenditures questioned and subsequently disallowed.” The Uniform
           Administrative Requirements for Grants and Cooperative Agreements to State
           and Local Governments, 44 CFR Part 13.36, requires that a cost or price analysis
           be performed in connection with every procurement action, including contract
           modifications, to determine the reasonableness of the proposed price. 44 CFR
           Part 13.36 allows noncompetitive procurements only when a competitive award
           is infeasible under small purchase procedures, sealed bids, or competitive
           proposals, and the item or service is available from a single source; a public
           emergency will not permit delay resulting from competition; the awarding
           agency authorizes the noncompetitive proposal; or, after solicitation of a
           number of sources, competition is determined to be inadequate.

           The purchases listed in table 1 were noncompetitive, not justified as sole-source
           purchases, and not approved by FEMA.




www.oig.dhs.gov                                 4	                                      OIG-12-98
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



             Table 1. Noncompliant Purchases
                       Payee                           Description             Amount
             Advantage Design              Architectural services and
                                           construction oversight              $220,349
             Gourdie-Fraser & Associates   Engineering services and testing      57,937
             Total                                                             $278,286


           Advantage Design

           In September 2008, Traverse Metro awarded a sole-source, time and materials
           contract to a local architectural firm, Advantage Design, to create a design and
           the plans for a new “model” fire station to be built in the future when adequate
           funds were available. Traverse Metro awarded the contract on the basis of an
           unsolicited proposal from Advantage Design. When FEMA announced the fire
           station construction grant competition, Traverse Metro asked Advantage Design
           to accelerate the completion of the fire station plans and submitted those plans
           with its grant application.

           Following the grant award, Traverse Metro noncompetitively amended the firm’s
           contract to add new services and increased the fees to a ceiling of $270,000. The
           services included preparing initial and subsequent construction cost estimates;
           assisting Traverse Metro in identifying, selecting, and coordinating the
           professional services of surveyors, special consultants, and testing laboratories;
           preparing, receiving, and evaluating contract bids and making award
           recommendations; and assisting Traverse Metro in obtaining building permits.
           The amendment also stipulated that Advantage Design oversee the general
           construction contractor, including certifying the general contractor’s
           performance and the accuracy of the work invoices.

           Traverse Metro included $220,349 of fees paid to Advantage Design in its
           requests for reimbursement to FEMA. We questioned the $220,349 because
           Traverse Metro noncompetitively modified the contract and did not perform a
           cost and price analysis, did not prepare a sole-source procurement justification,
           and did not obtain FEMA approval for the purchase. Traverse Metro officials
           said that they used Advantage Design because the firm had nearly completed the
           fire station plans when FEMA advertised the fire station construction grant, and




www.oig.dhs.gov                                 5                                       OIG-12-98
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           doing so helped provide a shovel-ready 1 project. Traverse Metro also
           maintained that there was no time to compete this effort, and that doing so
           would not have been cost effective since Advantage Design retained ownership
           of the fire station design. Finally, Traverse Metro officials said that they were
           not aware of the Federal requirement to seek FEMA approval for
           noncompetitive procurements.

           We also determined that $62,391 of the $220,349 of Advantage Design costs
           were incurred before the award of the grant and would otherwise be ineligible
           for reimbursement according to requirements. The Guidance and Application Kit
           identifies preaward costs, including design, planning, and engineering expenses,
           as ineligible for reimbursement. Traverse Metro officials agreed that these
           preaward costs should not have been submitted for reimbursement.

           Gourdie-Fraser & Associates

           Traverse Metro signed an agreement with Gourdie-Fraser & Associates for
           engineering services, including updating the topographical survey of the building
           site and locating the roadway, rights-of-way, utilities, and boundaries; furnishing
           layout and design services; conducting soil tests and drainage assessments;
           coordinating site plans; and obtaining permits from local health, public works,
           and building departments. The agreement provides for a fixed-fee payment of
           $12,900 for the initial site engineering work and was increased to $57,937 at the
           completion of the project. Traverse Metro incurred and included engineering
           services fees of $57,937 in its requests for FEMA reimbursement.

           We questioned costs of $57,937 because Traverse Metro did not award the
           agreement competitively or perform a cost or price analysis, prepare a sole-
           source procurement justification, or obtain FEMA approval for the purchase.
           Traverse Metro officials advised us that they hired Gourdie-Fraser & Associates
           because the firm provides similar engineering services to Garfield Charter
           Township (Township), had assisted the Township in the development of a park
           adjacent to the new fire station site, and was part of the preaward design team
           that prepared plans for the fire station. Also, officials believed that competing
           this effort after the grant award would have caused unnecessary delay and loss
           of the value already invested by the firm, and prior involvement with the firm on
           this effort would justify the sole-source procurement. Traverse Metro officials

   1
     The Guidance and Application Kit states, “The timing of the project would have an effect on both
   stimulating the local economy in addition to improving protection of the firefighters and the community.
   As such, projects capable of starting immediately upon receipt of DHS approval receive higher priority.”


www.oig.dhs.gov                                        6                                              OIG-12-98
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           also said that they were not aware of the Federal requirement to seek FEMA
           approval for noncompetitive procurements.

           We also determined that $9,518 of the $57,937 of Gourdie-Fraser & Associates
           costs were incurred before the award of the grant and would otherwise be
           ineligible for reimbursement according to the Guidance and Application Kit.
           Traverse Metro agreed that these preaward costs should not have been
           submitted for reimbursement.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate:

           Recommendation #1:

           Resolve the questioned costs of $278,286 pertaining to the contracts that were
           noncompetitively awarded.

           Management Comments and OIG Analysis

           FEMA provided formal comments to our draft report, which are included as
           appendix B.

           FEMA Comments to Recommendation #1

           FEMA concurred with the intent of the recommendation and indicated that it is
           in contact with Traverse Metro to review the questioned costs. FEMA said that it
           expects to have completed its review in time to provide a “more specific plan for
           corrective action within 90 days in response to the final report.”

           OIG Analysis

           Although FEMA concurred with the recommendation, it did not identify
           corrective actions. Therefore, the recommendation will remain unresolved and
           open until FEMA provides a corrective action plan, including target completion
           dates and responsible parties.




www.oig.dhs.gov                                7                                      OIG-12-98
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Ineligible Costs ($190,916) 


           Table 2 summarizes costs totaling $190,916 for services, systems, and equipment
           that are not eligible for reimbursement according to the grant.

                         Table 2. Ineligible Services, Systems, and Equipment
                                      Description                    Amount
                         Land Lease Costs                                 $4,314
                         Security Systems                                  8,300
                         Office Furnishings                               10,225
                         Public Safety Radio System                       25,811
                         Legal Services                                   26,261
                         Landscaping                                      34,761
                         Equipment                                        81,244
                         Total                                          $190,916

           Land Lease Costs

           We questioned $4,314 related to leasing land for the fire station building site.
           Traverse Metro obtained a 50-year lease from the Township for a 3-acre building
           site for the new fire station. Included in the project costs were legal fees
           ($1,050) and title insurance premiums ($3,264) associated with the land lease.
           However, the Guidance and Application Kit lists the costs of land acquisition as
           ineligible. Traverse Metro officials advised us that they were unaware that costs
           associated with the lease of the fire station building site would not be eligible for
           reimbursement.

           Security Systems

           We questioned $8,300 associated with a security system. Traverse Metro
           installed a station alarm system, including a fire alarm, electronic card locks, and
           a station monitoring system, at a combined cost of $8,300. The Guidance and
           Application Kit lists security systems among items not eligible for funding.
           Traverse Metro was not able to segregate the costs between the allowable fire
           alarm and the ineligible security system; therefore, we questioned the entire
           amount. Traverse Metro advised us that this system is consistent with those
           installed in other fire stations and administrative buildings and is necessary to
           monitor those entering and exiting the buildings.




www.oig.dhs.gov                                  8                                        OIG-12-98
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Office Furnishings

           We questioned $10,225 for built-in bookcases and cabinets for fire station
           offices. The Guidance and Application Kit identifies office furnishings as an
           ineligible item. Traverse Metro believed that the office furnishings were eligible
           because they were built in as part of the construction costs.

           Public Safety Radio System

           We questioned $25,811 claimed for a public safety radio system. Traverse
           Metro subsequently told us that the $25,811 included $6,090 for video devices
           that it had mistakenly included in the claimed amount. Traverse Metro
           purchased and installed the $19,721 public safety radio system in the new fire
           station to communicate with the other Traverse Metro fire stations and the
           emergency response network. Traverse Metro believes that the radio system is
           required by National Fire Protection Association (NFPA) 1500,2 Standard on Fire
           Department Occupational Safety and Health Program, Chapter 8, Emergency
           Operations.

           Although the Guidance and Application Kit does not specifically identify radio
           systems as an eligible or ineligible item, it does say that projects that duplicate
           other Federal awards are ineligible. Communications systems may be obtained
           under FEMA’s Assistance to Firefighters Grant program. Given the lack of
           specificity as to what is eligible under NFPA 1500 and the specific identification
           in the Guidance and Application Kit of projects that duplicate other Federal
           awards as ineligible, we questioned the $19,721 cost of the radio system and the
           $6,090 for video devices mistakenly included in the claim.

           Legal Services

           We questioned $26,261 of legal services fees. According to the Traverse Metro
           Chief, legal services included preparing land lease documentation and reviewing
           and advising Traverse Metro about Federal requirements, construction plans,
           and contract bid procedures.



   2
    The Guidance and Application Kit identifies as eligible expenses those necessary to comply with NFPA
   1500. The 2007 edition of NFPA 1500 is a 90-page document that covers activities such as fire department
   administration, training, fire apparatus and equipment, emergency operations, facility safety, and medical
   and physical requirements. The Guidance and Application Kit does not comment further on the expenses
   that would qualify for funding under NFPA 1500.


www.oig.dhs.gov                                        9                                              OIG-12-98
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           We questioned the $26,261 because Traverse Metro did not include legal
           services in the approved fire station grant budget. The grant agreement
           specifies that the grantee shall perform work as described in the approved grant
           application, including the budget, and may not deviate from the approved scope
           of work without approval from FEMA. FEMA did not approve any changes to the
           grant budget.

           We also determined that $1,476 of the legal services fees were incurred before
           the award of the grant and were otherwise ineligible for reimbursement
           according to the Guidance and Application Kit. Traverse Metro agreed that the
           preaward costs should not have been submitted for reimbursement. Finally, the
           fire chief said that some of the legal fees related to leasing land for the new
           station. According to the Guidance and Application Kit, the cost of land
           acquisition is ineligible. We could not identify the amount of legal services
           pertaining to the land lease because the bills from the legal firm did not itemize
           the charges for work on the new fire station.

           Landscaping

           We questioned $34,761 in landscaping costs for landscape design and
           installation of plants and irrigation lines ($6,871), irrigation system ($2,890), and
           trees and shrubs ($25,000). The Guidance and Application Kit identifies
           landscaping as an ineligible item. We also determined that Traverse Metro
           noncompetitively awarded the contract for the landscape design and
           installation; and that $3,652 of the $6,871 was incurred before the start of the
           grant period. Traverse Metro officials said that the landscaping design, plants,
           and installation are necessary to comply with the Leadership in Energy and
           Environmental Design certification, which was encouraged by FEMA and an
           important part of the Traverse Metro grant application.

           Equipment

           We questioned $81,244 in equipment costs, as follows:

              •    Apple laptop computer	                                   $2,404
              •    Stair chair for removing victims from fire scene          2,321
              •    Commercial washer and dryer	                             19,462
              •    Washer and dryer for firefighting protective gear        14,057
              •	   Air compressor for self-contained breathing apparatus    43,000

                                                                           $81,244





www.oig.dhs.gov                                   10	                                      OIG-12-98
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The Guidance and Application Kit specifically identifies firefighting equipment
           and apparatus and washers/extractors as not eligible for funding. The Guidance
           and Application Kit also says that projects that duplicate other Federal awards
           are ineligible. Firefighting equipment, such as air compressors, may be obtained
           under FEMA’s Assistance to Firefighters Grant program. Finally, OMB Circular
           A-87 requires prior approval of the grantor agency for capital expenditures as
           direct costs for general-purpose equipment; special-purpose equipment with a
           unit cost of $5,000 or more; and improvements to land, buildings, or equipment
           which materially increase their value or useful life. FEMA did not approve any of
           the above-listed equipment items.

           Traverse Metro agreed that the stair chair and video system should not have
           been included in the reimbursement request, but said that the laundry machines
           and air compressors are required to meet the provisions of NFPA 1500.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate:

           Recommendation #2:

           Resolve the questioned costs of $190,916 pertaining to the ineligible costs.

           Management Comments and OIG Analysis

           FEMA provided formal comments to our draft report, which are included as
           appendix B.

           FEMA Comments to Recommendation #2

           FEMA concurred with the intent of the recommendation and indicated that it is
           in contact with Traverse Metro to review the questioned costs. FEMA said that it
           expects to have completed its review in time to provide a “more specific plan for
           corrective action within 90 days in response to the final report.”

           OIG Analysis

           Although FEMA concurred with the recommendation, it did not identify
           corrective actions. Therefore, the recommendation will remain unresolved and
           open until FEMA provides a corrective action plan including target completion
           dates and responsible parties.


www.oig.dhs.gov                                11                                         OIG-12-98
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Unsupported Salary and Benefits Costs ($122,255) 


           We questioned costs of $122,255 claimed for the salary and benefits of a
           Traverse Metro assistant fire chief who managed the fire station construction
           project ($119,244) and the Traverse Metro accountant who prepared financial
           documents for the grant ($3,011).

           Upon learning of the FEMA fire station construction grant opportunity in
           February 2009, Traverse Metro assigned the assistant chief for fire prevention to
           work on obtaining a grant. The assistant chief helped prepare the new fire
           station grant application, arrange for local planning approval, apply for land use
           permits, and obtain a long-term lease for the building site. The assistant chief
           also performed other related tasks. After FEMA awarded the grant in September
           2009, the fire chief designated the assistant chief as the owner’s representative
           for the fire station construction project and began charging the hours the
           assistant chief worked on the project to the grant. The assistant chief oversaw
           construction contractors and subcontractors, monitored “Buy American”
           compliance, led weekly management meetings, and interacted with FEMA and
           local authorities involved in the construction of the fire station. Traverse Metro
           compensated the assistant chief at his regular rate of pay and claimed
           reimbursement of $119,244 for salary and associated benefits for the period
           from October 2009 to June 2011. The fire chief told us that the assistant chief
           did not perform any fire prevention duties while functioning as the owner’s
           representative and that the assistant chief retired in June 2011.

           We questioned the $119,244 as an unsupported cost for the following reasons:

           •	 The assistant chief for fire prevention did not keep time distribution records
              to document the amount of time spent as the owner’s representative. OMB
              Circular A-87, Attachment B.8, h(4), Support of Salaries and Wages, a
              subsection under Compensation for Personal Services, states that where
              “employees work on multiple activities or cost objectives, a distribution of
              their salaries or wages will be supported by personnel activity reports or
              equivalent documentation” that meets certain standards.

           •	 Traverse Metro did not include costs for administration or otherwise specify
              an owner’s representative in the approved grant budget. The grant
              agreement requires that the grantee shall perform work as described in the
              approved grant application, including the budget, and may not deviate from
              the approved scope of work without approval from FEMA. Traverse Metro
              did not request or receive approval for changing the project scope/budget.


www.oig.dhs.gov                                12	                                     OIG-12-98
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



           •	 Traverse Metro did not prepare a compensation analysis or survey local wage
              rates to determine the appropriate salary for the tasks performed by the
              owner’s representative or provide an estimate of the amount of time needed
              for the oversight. Accordingly, there is no basis to show that the salary and
              benefits paid were fair and reasonable for the work performed.

           •	 Some of the owner’s representative’s responsibilities were shared by the
              firms performing architectural and engineering services, resulting in potential
              duplication of effort and/or inefficient use of funds. For example, the
              architect was tasked with identifying contractors, reviewing bidding
              procedures, overseeing the general contractor and subcontractors, providing
              current cost estimates and analyses, and obtaining building permits. The
              engineer’s tasks also including obtaining permits.

           Traverse Metro advised us that the assistant chief provided invaluable
           management and oversight of the fire station construction project that could not
           have otherwise been obtained in a timely and cost effective manner after the
           grant award.

           We questioned the $3,011 in salary and benefits of the accountant because she
           did not prepare time distribution records and the approved grant budget did not
           include costs for administration.

           Although the grant budget did not include costs for administration, the Guidance
           and Application Kit allows as a grant expense administrative costs that are
           directly related to the implementation and management of the grant and that do
           not exceed 3 percent of the award. For the grant to Traverse Metro, the
           3 percent limit is $84,391 (3 percent times $2,813,034). Traverse Metro claimed
           $122,255 for the salary and benefits of employees who performed administrative-
           type duties. If administrative costs had been approved and properly documented,
           the amount incurred would have exceeded the 3 percent limit by $37,864
           ($122,255 less $84,391).

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate:




www.oig.dhs.gov                                13	                                     OIG-12-98
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



           Recommendation #3:

           Resolve the questioned costs of $122,255 related to unsupported salary and
           benefits.

           Management Comments and OIG Analysis

           FEMA provided formal comments to our draft report, which are included as
           appendix B.

           FEMA Comments to Recommendation #3

           FEMA concurred with the intent of the recommendation and indicated that it is
           in contact with Traverse Metro to review the questioned costs. FEMA said that it
           expects to have completed its review in time to provide a “more specific plan for
           corrective action within 90 days in response to the final report.”

           OIG Analysis

           Although FEMA concurred with the recommendation, it did not identify
           corrective actions. Therefore, the recommendation will remain unresolved and
           open until FEMA provides a corrective action plan including target completion
           dates and responsible parties.

           Compliance With Requirements for Reporting, Buying American Products, and
           Paying Prevailing Wages

           The Recovery Act requires recipients to submit quarterly reports on project
           activities to the Federal Government, and to ensure that projects are
           accomplished with American-made iron, steel, and manufactured goods and that
           workers are paid prevailing wages as determined by the Secretary of Labor. We
           verified that Traverse Metro submitted the required quarterly reports. Also,
           Traverse Metro included “Buy American” and prevailing wage provisions in the
           construction contracts for the fire station and instituted sufficient controls to
           ensure that these provisions were honored. Controls included written
           requirements for subcontractors to comply with the requirements; review and
           certification of all invoices by the architect; daily, onsite oversight by the owner’s
           representative; and a requirement for vendors/contractors to submit pay
           vouchers showing payment of prevailing wages.



www.oig.dhs.gov                                 14                                         OIG-12-98
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to determine whether costs claimed by Traverse Metro
   were allowable, allocable, and reasonable according to the grant and applicable Federal
   regulations. This audit covered costs of $2,589,021 claimed by Traverse Metro from
   September 2009 to September 2011 and reimbursed by FEMA.

   In conducting our audit, we did the following:

   •	 Obtained and reviewed the Recovery Act, the grant application and award, the grant
      Guidance and Application Kit, and Federal cost principles and grant administrative
      requirements;

   •	 Interviewed Traverse Metro personnel to gain an understanding of their accounting
      system and the applicable internal controls;

   •	 Reviewed the fiscal year 2010 single audit report and interviewed the responsible
      auditor to identify issues and other conditions that could affect our examination;

   •	 Reviewed the recipient’s internal controls specifically related to our objectives;

   •	 Examined vendor invoices and other evidence supporting 100 percent of costs
      incurred and claimed for FEMA reimbursement;

   •	 Reviewed accounting transactions related to purchases, payments, and receipt of
      FEMA reimbursements;

   •	 Used the grant provisions and applicable Federal requirements to determine
      whether amounts claimed were eligible for reimbursement;

   •	 Performed fraud detection procedures; and

   •	 Inspected the new fire station and surrounding property.


www.oig.dhs.gov                                15	                                         OIG-12-98
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



   We conducted this performance audit between August 15, 2011 and October 30, 2011,
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                              16                                      OIG-12-98
                                           OFFICE OF INSPECTOR GENERAL
                                                  Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                                              LS. n"pnlm<fIt <of "on-ld"nd   S<'""dj~
                                                                                                              Washngl<ln,I.><': 2')472




                                                                                                            FE1vIA
                                                                  lilY 1 , 2tlll


              MEMORANDtJM FOR:                        Anne!., Hic11nrds
                                                      Assisteot Inspector Gcnc1'ulh11' Audit"
                                                      Office of inspeemr nencra!

              FROM:                                   David J. Kaufman
                                                      Director
                                                      FEMA Office of Policy and Prugraul Analysis

              SUBJECT,                              Comments to OIG Dratl Report, Rrvie,t o..f'CO,\-ts Claimed by
                                                    Grand Travcr,~c, }.f/,VetroEmcr;2;cm,)' Services Authority under
                                                    FIre .<)'tatiof1 Construi"tion (;ram        N!lmbel'E'~fW-20(}(i-FC-01786R




              The Federal Emergency Man:'1gement Agency (FEMA) appreciates the opportunity to review and
              rc..s~xl1ld to the Departmcnt of Homdand Security (DBS) Office of Inspector Genera! (OIG) Draft
              Report, As noted in our responses to your recommendations, below - FEMA is continuing to work
              to resolve the issues identified in the audit

              OIG Recommendation #1: We recommend that the Assistant Administrator. Grant Prograuls
              Directorate. resolve the questioned costs ofS278,286 pertaining to the eontrads that were
              nuncompetitivdy d\vdnh:d.

              FEMA Response: FEMA ClJI1CUfS with the intent of'the n:eOIllmendation 1:0 resolve the questioned
              cc:;ts related to non competitively awarded. cOJ11:racts. Vie arc currently in contact with the grantee to
              l(;;vie:\y the qUt-;;timwd costs identified as "vel! <1:" any other co,~ts :lSSOCi;)lCd wirh the SLi.tiiuIl
              Construction Gnm1 that were incurred OHi:sid" oftbc federlll fiJn(h We expcct tc hil\';'; completed
              our ,c '/ il,.~W in tiu:c to pro ' ide a ~l1(n: "recife phn!i:lT CntTc',tive tE:h(}f) wiThin 90 d,lY" in re"pon>.;(; to
              the final report

              Ole Recommendation # 2: \Vc rec;ml;nend tlw( \'he ;\. o;"ir.itant ,\dministHl1:0:', G n :nt PTc-gran)';
                                q;Jtcsrioned costs of'S I     (} rW'1;)ini~)g      he incligihir: ccm:.

              FE :\'L\ R(:sIHIHS{, to the Draft tiepnrt : F; E\,1 i\ concur" with the intcn'                                 t\'culrilw'ndaii:m 10
              resolve the qucstwned C03tS dE S 19(1,9 j 6 . \Vc                       (:1J,rr~1JtlY in (\)niact v, itl" L'hc grantee to ;CVJCW the
              cost" L:lenli i'icd '1S weL ,E :my mhCf CDS\.'> nssociatdl \viJJ the SLujon (~' {}jH ~n.:dion (rnmt tiD\ \V;'n~
              iW;J,rrcd             / ) f th c :,(;·\J-c"JJ fiX1d.";' \l/c c:'l.'lCci   i'HY C C,')n10k;cd ODr rc\Cic'-,", in             pruvide it
              iTh.we ~pf'cifi{~ ph!' f;-c conTx~r:\;C ;Ktion \vi1hin q) d:.:y,:"                 rcsp(l1is ~-, v ) the f Da) r eo{}rt




www.oig.dhs.gov                                                              17                                                                         OIG-12-98
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              OIG Recommendation #3: \\ic recommend that :hC'-\5,,::<tnnt Administrator, Grnnt Prognuns
              Directorate, resolve the questlOned costs ofSI22255 related to unsupported salary and benefits
              costs.

              FEl\lA Response to the Draft Report: FEMA concurs \vith the mtent ofthc recommendation
              to resolve the questioned costs related to sa:ary and benefits. \Vc are currently in contact with
              the grantee to review the costs identitlcd as well as (IllY olheT L:[lsl.s assuciated ,vith the Station
              Construction Grant that \Vere incurred outside ofthe federal funds. \Ve expect to have completed
              (JUf revic;,.\' in timc to provlde a more specific plan for corrective action within 90 days in
              responsc to the final report.

              Again, we thank you f(Jr the opportunity to rcvic'w your rcport If you have further Questions,
              please do not hesitate to call (Jina Nortol1,FEMA Audit Liaison Office, 202~646~4287.




www.oig.dhs.gov                                                18                                                       OIG-12-98
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Roger La Rouche, Director of Recovery Act Audits
   Matthew Mongin, Auditor
   Sandra Ward-Greer, Independent Referencer




www.oig.dhs.gov                             19                   OIG-12-98
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Recovery Act Coordinator

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate,
     Federal Emergency Management Agency
   Audit Liaison Official

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 20                         OIG-12-98
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or fax it
directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
